No. _______

IN THE
SUPREME COURT OF THE UNITED STATES
___________
JOSE FLORES-DOMINGUEZ,
Petitioner
v.
UNITED STATES OF AMERICA
Respondent
___________
APPENDIX
___________

INDEX TO APPENDICES
Appendix A

Judgment and Opinion of Fifth Circuit

Appendix B

Judgment and Sentence of the United States District Court for the Northern
District of Texas

APPENDIX A

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-10659
Summary Calendar

FILED
February 28, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
JOSE FLORES-DOMINGUEZ,
Defendant-Appellant
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:18-CR-617-1
Before WIENER, HAYNES, and COSTA, Circuit Judges.
PER CURIAM: *
Jose Flores-Dominguez pleaded guilty of illegal reentry after removal
from the United States, and he was sentenced to a 46-month term of
imprisonment and to a three-year period of supervised release.

Flores-

Dominguez contends that sentence is substantively unreasonable because it
gives insufficient weight to a delay in bringing federal prosecution until after
pending state proceedings were completed.

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

No. 19-10659
We have reviewed this question for an abuse of discretion 1 and in light of
the sentencing factors in 18 U.S.C. § 3553(a). United States v. MondragonSantiago, 564 F.3d 357, 360 (5th Cir. 2009); United States v. Mares, 402 F.3d
511, 518-19 (5th Cir. 2005). Because the sentence was within or below the
properly calculated guidelines range, the sentence is presumptively
reasonable. United States v. Simpson, 796 F.3d 548, 557 (5th Cir. 2015). A
defendant may rebut the presumption of reasonableness “by showing that the
sentence does not account for factors that should receive significant weight,
gives significant weight to irrelevant or improper factors, or represents a clear
error of judgment in balancing sentencing factors.” United States v. Rashad,
687 F.3d 637, 644 (5th Cir. 2012).
Flores-Dominguez contends that the delay in federal prosecution was a
mitigating factor that “created a profound risk of arbitrary disparity between
[him] and other defendants[] and increased the aggregate term of
imprisonment beyond the needs expressed in 18 U.S.C. § 3553(a)(2).” Having
considered the arguments and the record, we conclude that Flores-Dominguez
has not rebutted the presumption of reasonableness. See Rashad, 687 F.3d at
644; United States v. Guillermo Balleza, 613 F.3d 432, 435 (5th Cir. 2010). The
judgment is AFFIRMED.

Under our precedent, the more deferential standard of review, plain error, would
have applied here; however, the Supreme Court reversed that precedent, so we apply the less
deferential standard of abuse of discretion. Holguin-Hernandez v. United States, 2020 U.S.
LEXIS 1365 *9 (U.S. Feb. 26, 2019) (Case No. 18-7739).
1

2

APPENDIX B

Case 3:18-cr-00617-N Document 33 Filed 06/24/19

Page 1 of 7 PageID 76

UNITED STATES DISTRICT COURT

NORTHERN DISTRICT OF TEXAS DALLAS DIVISION

UNITED STATES OF AMERICA

§
§
§
§
§
§
§

v.
JOSE FLORES-DOMINGUEZ
THE DEFENDANT:
☐ pleaded guilty to count(s)

JUDGMENT IN A CRIMINAL CASE
Case Number: 3:18-CR-00617-N(1)
USM Number: 58220-177
Stephen James Green
Defendant’s Attorney

pleaded guilty to count(s) before a U.S.

☒ Magistrate Judge, which was accepted by the
☐
☐

court.
pleaded nolo contendere to count(s) which was
accepted by the court
was found guilty on count(s) after a plea of not
guilty

Count 1 of the Indictment filed on December 4, 2018.

The defendant is adjudicated guilty of these offenses:
Title & Section / Nature of Offense

8 U.S.C. § 1326 (a) and (b)(1) Illegal Reentry After Removal from the United States

Offense Ended
07/08/2018

Count
1

The defendant is sentenced as provided in pages 2 through 7 of this judgment. The sentence is imposed pursuant to the Sentencing
Reform Act of 1984.

☐ The defendant has been found not guilty on count(s)
☐ Count(s) ☐ is ☐ are dismissed on the motion of the United States
It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant must notify the court and United States attorney of material changes in economic
circumstances.

JUNE 10, 2019
Date of Imposition of Judgment

Signature of Judge

DAVID C. GODBEY, UNITED STATES DISTRICT JUDGE
Name and Title of Judge

JUNE 24, 2019
Date

Case 3:18-cr-00617-N Document 33 Filed 06/24/19

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 2 of 7 PageID 77

Judgment -- Page 2 of 7

JOSE FLORES-DOMINGUEZ
3:18-CR-00617-N(1)

IMPRISONMENT
Pursuant to the Sentencing Reform Act of 1984, but taking the Guidelines as advisory pursuant to United States v. Booker,
and considering the factors set forth in 18 U.S.C. Section 3553(a), the defendant is hereby committed to the custody of the United
States Bureau of Prisons to be imprisoned for a total term of:
46 (Forty-Six) months as to count 1. This sentence shall run consecutive to any sentence imposed in Case No. 18-50343-86-F
and Case No. 18-50342-86-F in the 86th District Court of Kaufman, Texas.
Pursuant to United States Sentencing Commission, Guidelines Manual, §5G1.3(b) (Nov. 2018), it is this Court's intent for the
Defendant to receive a sentence adjustment to account for any time that the Defendant spent in custody beginning on January
22, 2019, that the Bureau of Prisons will not credit under 18 U.S.C. § 3585(b).

☒ The court makes the following recommendations to the Bureau of Prisons:
That the defendant be designated to FCI, Seagoville, if possible.

☒ The defendant is remanded to the custody of the United States Marshal.
☐ The defendant shall surrender to the United States Marshal for this district:
☐ at

☐

a.m.

☐

p.m.

on

☐ as notified by the United States Marshal.
☐ The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
☐ before 2 p.m. on
☐ as notified by the United States Marshal.
☐ as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:
Defendant delivered on
at

to
, with a certified copy of this judgment.

_______________________________________
UNITED STATES MARSHAL

By
_______________________________________
DEPUTY UNITED STATES MARSHAL

Case 3:18-cr-00617-N Document 33 Filed 06/24/19

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 3 of 7 PageID 78

Judgment -- Page 3 of 7

JOSE FLORES-DOMINGUEZ
3:18-CR-00617-N(1)

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of: Three (3) years as to Count 1.

MANDATORY CONDITIONS
1.

You must not commit another federal, state or local crime.

2.

You must not unlawfully possess a controlled substance.

3.

You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release
from imprisonment and at least two periodic drug tests thereafter, as determined by the court.

☐ The above drug testing condition is suspended, based on the court's determination that you pose a low risk of future
4.
5.

☐

substance abuse. (check if applicable)
You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence
of restitution. (check if applicable)
You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)

☒
6. ☐ You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et

seq.) as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which
you reside, work, are a student, or were convicted of a qualifying offense. (check if applicable)

7.

☐ You must participate in an approved program for domestic violence. (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any additional
conditions on the attached page.

Case 3:18-cr-00617-N Document 33 Filed 06/24/19

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 4 of 7 PageID 79

Judgment -- Page 4 of 7

JOSE FLORES-DOMINGUEZ
3:18-CR-00617-N(1)

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1. You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
frame.
2. After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
3. You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from
the court or the probation officer.
4. You must answer truthfully the questions asked by your probation officer.
5. You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
6. You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer
to take any items prohibited by the conditions of your supervision that he or she observes in plain view.
7. You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
8. You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
9. If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
10. You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that
was designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or
tasers).
11. You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant
without first getting the permission of the court.
12. If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
13. You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a
written copy of this judgment containing these conditions. I understand additional information regarding these
conditions is available at www.txnp.uscourts.gov.
Defendant’s Signature

Date

Case 3:18-cr-00617-N Document 33 Filed 06/24/19

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 5 of 7 PageID 80

Judgment -- Page 5 of 7

JOSE FLORES-DOMINGUEZ
3:18-CR-00617-N(1)

SPECIAL CONDITIONS OF SUPERVISION
As a condition of supervised release, upon the completion of the sentence of imprisonment, the defendant shall
be surrendered to a duly-authorized immigration official for deportation in accordance with the established
procedures provided by the Immigration and Nationality Act, 8 U.S.C. § 1101 et seq. As a further condition of
supervised release, if ordered deported or removed, the defendant shall remain outside the United States.
In the event the defendant is not deported upon release from imprisonment, the defendant shall comply with the
standard conditions contained in this Judgment and shall comply with the mandatory and special conditions
stated herein.

Case 3:18-cr-00617-N Document 33 Filed 06/24/19

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 6 of 7 PageID 81

Judgment -- Page 6 of 7

JOSE FLORES-DOMINGUEZ
3:18-CR-00617-N(1)

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
TOTALS

Assessment
$100.00

JVTA Assessment*
$.00

Fine
$.00

Restitution
$.00

☐ The determination of restitution is deferred until


An Amended Judgment in a Criminal Case (AO245C) will be entered
after such determination.
The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment. However, pursuant to 18 U.S.C.
§ 3664(i), all nonfederal victims must be paid before the United States is paid.

☐ Restitution amount ordered pursuant to plea agreement $
☐ The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before
☐

the fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be
subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).
The court determined that the defendant does not have the ability to pay interest and it is ordered that:
☐ the interest requirement is waived for the
☐ fine
☐ restitution

☐ the interest requirement for the

☐ fine

☐ restitution is modified as follows:

* Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22
** Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or after
September 13, 1994, but before April 23, 1996.

Case 3:18-cr-00617-N Document 33 Filed 06/24/19

AO 245B (Rev. TXN 2/18) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 7 of 7 PageID 82

Judgment -- Page 7 of 7

JOSE FLORES-DOMINGUEZ
3:18-CR-00617-N(1)

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

☐

Lump sum payments of $

due immediately, balance due

☐

not later than

, or

☐

in accordance

B

☐

Payment to begin immediately (may be combined with

C

☐

Payment in equal

D

☐

Payment in equal 20 (e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after release from imprisonment to a term of
supervision; or

E

☐

Payment during the term of supervised release will commence within
(e.g., 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

F

☒

Special instructions regarding the payment of criminal monetary penalties:
It is ordered that the Defendant shall pay to the United States a special assessment of $100.00 for Count 1, which shall be due
immediately. Said special assessment shall be paid to the Clerk, U.S. District Court.

☐

C,

☐

D,

☐

E, or

☐

F below; or

☐

C,

☐

D, or

☐

F below); or

(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after the date of this judgment; or

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due during
imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’ Inmate Financial Responsibility
Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.



☐
☐
☐

Joint and Several
See above for Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several
Amount, and corresponding payee, if appropriate.
☐ Defendant shall receive credit on his restitution obligation for recovery from other defendants who contributed to the same loss that gave
rise to defendant's restitution obligation.
The defendant shall pay the cost of prosecution.
The defendant shall pay the following court cost(s):
The defendant shall forfeit the defendant’s interest in the following property to the United States:

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5) fine interest, (6) community restitution, (7) JVTA Assessment, (8) penalties, and (9) costs, including cost of prosecution and court costs.

